UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

Division of Marketing Practices
~
Craig Tregillus
ctregillus@ftc.gov

Teléfono Directo: (202) 326-2970
Facsímile: (202) 326-3395

14 de mayo de 2010

Sr. Carlos E. Rodríguez
Presidente de Celestium Crematory
P.O. Box 9086
Plaza Carolina Station
Carolina, Puerto Rico 00988-9086
Estimado Sr. Rodríguez:
Usted a solicitado confirmación respecto de su opinión que sostiene que la Regla de
Funerales de la Comisión Federal de Comercio (FTC) se aplica a los proveedores de bienes y
servicios fúnebres de Puerto Rico. Su consulta fue motivada por una audiencia que se llevó a
cabo recientemente en la Cámara de Representantes del Estado Libre Asociado de Puerto Rico
con el fin de examinar las prácticas de las funerarias. Durante dicha audiencia, algunos
legisladores expresaron su opinión manifestando que la Regla de Funerales es inaplicable en
Puerto Rico, lo cual les dio la impresión a los proveedores locales de este sector que no es
necesario que cumplan con sus disposiciones. Por supuesto que usted tiene razón, y tal como se
desprende de una breve revisión de la historia de la relación entre Estados Unidos y Puerto Rico,
efectivamente, la Regla se aplica a los proveedores de bienes y servicios fúnebres establecidos
en Puerto Rico.
Un grupo de trabajo encomendado por el Presidente ha recopilado esa historia,1 pero
creemos que es oportuno resumirla en la presente carta. En 1898, conforme a los términos del
Tratado de París que dio por finalizada la guerra entre España y Estados Unidos2, Puerto Rico
fue cedido a Estados Unidos por España. En 1900, después de dos años de administración de un
gobernador militar, el Congreso estableció un gobierno civil para Puerto Rico.3 En 1917, el
Congreso estableció el estatus de la isla definiéndolo como un territorio “organizado pero
incorporado” y les otorgó la ciudadanía estadounidense a los puertorriqueños.4 En 1952, de
conformidad a la Ley de Relaciones Federales de Puerto Rico,5 se llevó a cabo un referéndum y
el pueblo de Puerto Rico votó la aprobación de una nueva constitución, que fue aprobada ese
mismo año por el Congreso y que constituyó el Estado Libre Asociado de Puerto Rico actual.6
1

INFORME DEL GRUPO DE TRABAJO DEL PRESIDENTE SOBRE EL ESTATUS DE PUERTO RICO
(Diciembre de 2007)(“Task Force Report”), disponible en http://www.justice.gov/opa/documents/2007-report-bythe-president-task-force-on-puerto-rico-status.pdf.
2
Ídem, 3.
3
Ídem.
4
Ídem.
5
Pub. L. 600.
6
Informe del Grupo de Trabajo, 3.

Sr. Carlos E. Rodríguez

Página 2 de 3

En cuatro plebiscitos subsiguientes, los puertorriqueños manifestaron por medio de su voto que
no deseaban alterar ese estatus para convertirse en un estado o en una nación soberana
independiente.7
La Constitución de los Estados Unidos de América dispone que “[e]l Congreso tendrá la
facultad de disponer y efectuar todas las reglas y regulaciones necesarias en lo que respecta al
territorio u otra propiedad perteneciente a Estados Unidos.”8 En el mismo sentido, en 1959,
varios años después de la creación del Estado Libre Asociado,9 el Departamento de Justicia
afirmó el estatus territorial de Puerto Rico, que también fue ratificado por la Corte Suprema.10
Por lo tanto, Puerto Rico es un “territorio” de Estados Unidos.
La Sección 5 de la Ley de la Comisión Federal de Comercio Federal (“FTC Act”) prohíbe
“las prácticas o actos desleales o engañosos en el comercio o en aquello que afecte al
comercio.”11 La Sección 4 de la Ley de la FTC define el término “comercio” de la siguiente
manera:
Comercio significa el comercio entre varios estados o con países extranjeros, o en
cualquier territorio de Estados Unidos o en el Distrito de Columbia, o entre cualquiera
de estos territorios y otro, o entre cualquiera de estos territorios y cualquier estado o
país extranjero, o entre el Distrito de Columbia y cualquier estado o territorio o país
extranjero.12
La Regla de Funerales de la Comisión Federal de Comercio fue dictada en 1982 conforme a
lo dispuesto en la Sección 18(a)(1) de la Ley de la FTC,13 la cual ordena en la parte pertinente,
que tal regla “define con especificidad las prácticas o actos considerados prácticas o actos
desleales o engañosos en el comercio o en aquello que afecte al comercio (dentro del
significado de dicha sección 5(a)(1)).”14 En consecuencia, la Regla de Funerales posee el mismo
alcance jurisdiccional sobre las prácticas o actos desleales o engañosos que la Sección 5 de la
Ley de la FTC cuya aplicabilidad tiene alcance sobre el comercio ejercido “en cualquier
territorio de Estados Unidos.” Debido a que Puerto Rico continúa siendo un “territorio” de
Estados Unidos, la Regla de Funerales se aplica a los proveedores de bienes y servicios fúnebres
de Puerto Rico.
Se adjuntan copias en inglés y en español de la guía Cómo Cumplir con la Regla de
Funerales. Esta guía también está disponible en el sitio Web de la FTC en inglés en
http://www.ftc.gov/bcp/ edu/pubs/business/adv/bus05.pdf y en español en http://www.ftc.gov
/bcp/edu/pubs/business/ adv/sbus05.pdf.

7
8
9
10
11
12
13
14

Ídem, 3-4.
Art. IV, § 3, cl. 2.
Informe del Grupo de Trabajo 5; véase nota 4 supra y texto que acompaña a la nota.
Véase, vg., Harris vs. Rosario, 446 U.S. 651 (1980).
15 U.S.C. § 45(a)(1).
15 U.S.C. § 44 (destacado).
47 Fed. Reg. 42260, 42263 (24 de septiembre de 1982)
15 U.S.C. § 57a(a)(1)(B) (destacado).

Sr. Carlos E. Rodríguez

Página 3 de 3

Por favor, tenga presente que los puntos de vista expresados en la presente carta pertenecen
al personal de la FTC. Estas opiniones no han sido revisadas, aprobadas ni adoptadas por la
Comisión, y no son de carácter vinculante para la FTC. Sin embargo, el contenido de la presente
carta refleja las opiniones de los miembros del personal de la FTC que está a cargo de la
aplicación de la Regla de Funerales. Las opiniones del personal a cargo de la Regla de Funerales
se publican rutinariamente en el sitio Web de la FTC en http://www.ftc.gov/bcp/conline/edcams
/funerals/staffopinions.shtm.

Atentamente,
/s/
Craig Tregillus
Coordinador de la Regla de Funerales

